      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




December 20, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Joe Green/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Illinois’ Prompt Pay Compliance Under the American Recovery and
               Reinvestment Act of 2009 From January 1, 2009, Through September 30, 2009
               (A-05-09-00083)


Attached, for your information, is an advance copy of our final report on Illinois’ prompt pay
compliance under the American Recovery and Reinvestment Act during the first 9 months of
2009. We will issue this report to the Illinois Department of Healthcare and Family Services
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James C. Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at James.Cox@oig.hhs.gov. Please refer to report number A-05-09-00083.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

December 22, 2010

Report Number: A-05-09-00083

Ms. Julie Hamos
Director
Illinois Department of Healthcare and Family Services
201 South Grand Avenue East
Springfield, IL 62763-0002

Dear Ms. Hamos:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Illinois’ Prompt Pay Compliance Under the
American Recovery and Reinvestment Act of 2009 From January 1, 2009, Through September
30, 2009. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-09-00083 in all
correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie Hamos


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF ILLINOIS’ PROMPT PAY
COMPLIANCE UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT
 OF 2009 FROM JANUARY 1, 2009,
  THROUGH SEPTEMBER 30, 2009



                       Daniel R. Levinson
                        Inspector General

                         December 2010
                         A-05-09-00083
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. Pursuant to section
1905(b) of the Act, the Federal Government pays its share of a State’s medical assistance
expenditures under Medicaid based on the Federal medical assistance percentage (FMAP), which
varies depending on the State’s relative per capita income.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act will provide
an estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs. Pursuant to the Recovery Act, a State is not eligible for the increased FMAP for any
clean claim received from a practitioner on days when the State did not comply with prompt pay
requirements. Pursuant to 42 CFR § 447.45(d), a State Medicaid agency must pay 90 percent of
all clean claims from practitioners within 30 days of the date of receipt and 99 percent of such
claims within 90 days of the date of receipt.

Illinois Medicaid Program

In Illinois, the Department of Healthcare and Family Services (the State agency) administers the
State’s Medicaid program. During the period January 1, 2009, through September 30, 2009,
Illinois’ Recovery Act FMAP increase ranged from 10.16 percent to 11.56 percent, resulting in
additional Medicaid reimbursements totaling approximately $1 billion. The State agency
receives and processes Medicaid claims using Illinois’ Medicaid Management Information
System.

OBJECTIVE

Our objective was to determine whether the State agency complied with the prompt pay
requirements for receiving and reporting the increased FMAP.

SUMMARY OF FINDINGS

The State agency did not always comply with the prompt pay requirements for receiving and
reporting increased FMAP under the Recovery Act. As a result, it improperly received
approximately $2.5 million in increased FMAP for the period February 18, 2009, through
September 30, 2009.




                                                i
The State agency’s initial prompt pay calculations included several inaccuracies related to the
30/90-day prompt pay requirements and the inclusion or exclusion of certain claims in the daily
prompt pay compliance calculation.

In addition, the State agency failed to adjust the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program (Form CMS-64) for the quarter ended June 30, 2009, for
expenditures not eligible for increased FMAP.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,586,522 to the Federal Government for unallowable increased FMAP and

   •   ensure that calculations are performed in accordance with the prompt pay requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed that it had applied an incorrect
prompt pay standard and incorrectly excluded or included certain prompt pay claims. To cover
all corrections, State agency officials said that they made an adjustment of $2,586,522 and
reported it on the December 2009 CMS-64. The State agency’s comments are included in their
entirety as the Appendix.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       American Recovery and Reinvestment Act of 2009........................................................... 1
       Prompt Pay Requirements................................................................................................... 2
       Illinois State Medicaid Program ......................................................................................... 2

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 2
       Objective ............................................................................................................................. 2
       Scope ................................................................................................................................... 3
       Methodology ....................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................... 4

     FEDERAL GUIDANCE ........................................................................................................... 4

     INACCURACIES IN THE STATE AGENCY’S INITIAL
        PROMPT PAY CALCULATIONS .................................................................................... 5
        Incorrect Standard Applied in Prompt Pay Calculations .................................................... 5
        Claims Incorrectly Excluded From or Included In Prompt Pay Calculations .................... 5

     ADJUSTMENTS NOT MADE ................................................................................................ 6

     REVISED PROMPT PAY CALCULATIONS ........................................................................ 6

     RECOMMENDATIONS .......................................................................................................... 6

     STATE AGENCY COMMENTS ............................................................................................. 6

APPENDIX

     STATE AGENCY COMMENTS




                                                                       iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act will provide
an estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs. Section 5000 of the Recovery Act provides these increases to help avert cuts in health
care provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. For Federal
fiscal year 2009, these temporary FMAP increases ranged from 6.2 to nearly 14 percentage
points, depending on State unemployment rates.

Pursuant to section 5001(f)(2)(A) of the Recovery Act, effective February 18, 2009, and CMS
guidance, 1 a State is not eligible for the increased FMAP for any claim received from a
practitioner on days during any period in which the State did not comply with prompt pay
requirements referenced at section 1902(a)(37)(A) of the Act. Pursuant to section 5001(f)(2)(B)
of the Recovery Act, effective June 1, 2009, these requirements also apply to claims submitted
by hospitals and nursing facilities. In this report, we refer to these requirements as the prompt
pay requirements for receiving the increased FMAP under the Recovery Act.




1
    State Medicaid Director Letter No. 09-004 (July 30, 2009) (CMS’s guidance).


                                                          1
Prompt Pay Requirements

Section 1902(a)(37)(A) of the Act and implementing regulations (42 CFR § 447.45) specify
prompt pay requirements. Pursuant to 42 CFR § 447.45(d)(2), a State Medicaid agency “must
pay 90 percent of all clean claims from practitioners, who are in individual or group practice or
who practice in shared health facilities, within 30 days of the date of receipt.” Pursuant to
42 CFR § 447.45(d)(3), a State Medicaid agency must pay 99 percent of such claims within
90 days of the date of receipt. 2,3

Federal regulations define a clean claim as a claim that can be processed without obtaining
additional information from the provider or a third party. Clean claims do not include claims
from a provider that is under investigation for fraud or abuse or claims under review for medical
necessity (42 CFR § 447.45(b)). 4 CMS’s guidance to States defines the date of receipt as the
actual date a State receives a claim from a provider. CMS further defines a claim’s payment date
as either the payment check date, the date of an electronic funds transfer payment, the date that a
payment is mailed, or the date on the Explanation of Benefits or denial notice for denied claims
(CMS’s guidance, Appendix, section B).

Illinois State Medicaid Program

Illinois’s Department of Healthcare and Family Services (the State agency) administers the
State’s Medicaid program. The State agency receives and processes Medicaid claims using a
computerized payment and information reporting system, the Illinois Medicaid Management
Information System (MMIS). The State agency also tracks its daily compliance with the prompt
pay requirements using the claims information recorded in MMIS.

During the period January 1, 2009, through September 30, 2009, Illinois’ Recovery Act FMAP
increase ranged from 10.16 percent to 11.56 percent, resulting in additional Medicaid
reimbursements totaling approximately $1 billion.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with the prompt pay
requirements for receiving and reporting the increased FMAP.


2
    In general, a State Medicaid agency must pay all other claims within 12 months of the date of receipt.
3
  Because the Recovery Act was enacted on February 17, 2009, the first compliance date with respect to prompt pay
requirements for receiving the increased FMAP under the Recovery Act for practitioner claims was February 18,
2009. Therefore, claims received 30 days before this date (on January 20, 2009) were the first claims subject to the
30-day requirement, and claims received 90 days before this date (on November 21, 2008) were the first claims
subject to the 90-day requirement (CMS’s guidance).
4
    Throughout our report, “claims” refers to clean claims as defined pursuant to 42 CFR § 447.45(b).


                                                            2
Scope

Our review covered all Medicaid claims received and adjudicated by Illinois for the period
February 18 through September 30, 2009. We did not assess the State agency’s overall internal
control structure. We limited our review of internal controls to those applicable to our objective,
which did not require an understanding of all internal controls over the Medicaid program. We
reviewed the State agency’s procedures for ensuring compliance with prompt pay requirements
for receiving the increased FMAP under the Recovery Act.

We performed our fieldwork at the State agency’s Medicaid offices in Springfield, Illinois, from
May 2009 to May 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed the State agency’s policies and procedures for paying Medicaid providers and
        for complying with prompt pay requirements and met with State agency officials to gain
        an understanding of those policies and procedures;

   •    obtained from the State’s MMIS the population of all claims received for each day during
        the period November 21, 2008, through September 30, 2009;

   •    validated the population of claims received by randomly selecting 8 sample days from the
        State’s MMIS claim data file and testing them for completeness, accuracy, and validity;

   •    verified the State agency’s methodology for identifying clean Medicaid claims and
        calculating prompt pay percentages;

   •    determined whether the State agency complied with the prompt pay requirements for
        receiving the increased FMAP for each date beginning February 18, 2009, through
        September 30, 2009, by:

           o determining the number of clean claims received,

           o computing for each claim the number of days between the date of receipt and the
             date of payment or denial,

           o determining the total number of claims paid or denied within 30 days and within
             90 days, and




                                                 3
             o calculating the percentage of claims paid or denied within 30 days and within 90
               days; 5

    •   validated the accuracy of the State agency’s expenditures eligible for increased FMAP for
        the quarters ended March 31, 2009, June 30, 2009, and September 30, 2009;

    •   validated the revised prompt pay calculations that the State agency made during our audit
        period; and

    •   discussed the results of our audit with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not always comply with the prompt pay requirements for receiving and
reporting increased FMAP under the Recovery Act. As a result, it improperly received
approximately $2.5 million in increased FMAP for the period February 18, 2009, through
September 30, 2009.

The State agency’s initial prompt pay calculations included several inaccuracies related to the
30/90-day prompt pay requirements and the inclusion or exclusion of certain claims in the daily
prompt pay compliance calculation.

In addition, the State agency failed to adjust the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program (Form CMS-64) for the quarter ended June 30, 2009, for
expenditures not eligible for increased FMAP.

FEDERAL GUIDANCE

Section 5001(f)(2)(A) of the Recovery Act provides that the increased FMAP is not available
“for any claim received by a State from a practitioner ... for such days during any period in
which the State has failed to pay claims in accordance with” the timely processing of claims
standards as referenced at section 1902(a)(37)(A) of the Act and in implementing Federal
Medicaid regulations (42 CFR § 447.45(d)). Under the Recovery Act, the prompt pay provision
with respect to practitioners applies only “to claims made for covered services after the date of
enactment;” that is, because the Recovery Act was enacted on February 17, 2009, this provision
applies for claims received on or after February 18, 2009. Section 5001(f)(2)(A) further provides


5
 For each receipt date, we calculated these percentages by dividing the number of claims paid or denied within the
specified period by the total claims received on that date.


                                                         4
that each State report, on a quarterly basis, compliance with the prompt pay requirements for
claims made for covered services during each month of the preceding quarter.

Section 1902(a)(37)(A) of the Act and implementing regulations (42 CFR § 447.45) specify
Federal prompt pay requirements. Pursuant to 42 CFR § 447.45(d)(2), a State Medicaid agency
“must pay 90 percent of all clean claims from practitioners within 30 days of the date of receipt.”
Pursuant to 42 CFR § 447.45(d)(3), a State Medicaid agency must pay 99 percent of such claims
within 90 days of the date of receipt.

INACCURACIES IN THE STATE AGENCY’S INITIAL
PROMPT PAY CALCULATIONS

The State agency initially identified 46 days ($16.3 million in increased FMAP) on which it did
not comply with the prompt pay requirements during the period February 18, 2009, through
September 30, 2009. For some but not all of these 46 days, the State agency improperly received
increased FMAP.

Incorrect Standard Applied in Prompt Pay Calculations

Because of a computer coding error, the State agency inadvertently calculated prompt pay
compliance based on a 31/91 prompt pay requirement rather than the correct 30/90-day prompt
pay requirement. Consequently, when the State agency conducted its daily compliance tests, it
used claims that were received 31 days before the test day to determine whether at least 90
percent of those claims were paid as of the test day. It then identified claims received 91 days
before the test day to determine whether at least 99 percent of those claims were paid as of the
test day. As a result, the State agency incorrectly determined that some days were eligible for
increased FMAP.

Claims Incorrectly Excluded From or Included In Prompt Pay Calculations

Although CMS’s guidance provided proper information, the State agency incorrectly excluded
three categories of claims from its initial prompt pay calculations. The three claim categories,
the exclusion of which affected the accuracy of the prompt pay calculations, were:

   •   zero paid claims with no warrant (invoice for payment),

   •   denied clean claims, and

   •   dental claims previously excluded.

The State agency also incorrectly included Family Care Medicaid claims in its initial prompt pay
calculations. The State agency subsequently determined that these claims were pending State
plan approval by CMS and, therefore, were not eligible for traditional FMAP during the review
period.




                                                 5
ADJUSTMENTS NOT MADE

The State agency disclosed to us that it failed to adjust the CMS-64 for the quarter ended
June 30, 2009, for expenditures not eligible for increased FMAP. Claims received at the end of
the March 31, 2009, quarter and not paid until the following quarter were reported on the
CMS-64 for the quarter ended June 30, 2009. To comply with section 5001(f)(2)(a)(ii), the State
agency should have adjusted the total expenditures reported on the CMS-64 for the quarter ended
June 30, 2009, to account for the claims from the prior period that were not eligible for increased
FMAP. Consequently, the State agency inappropriately received increased FMAP related to the
unreported not-eligible expenditures.

REVISED PROMPT PAY CALCULATIONS

During the audit, the State agency revised its prompt pay calculations to correctly identify 37
days ($18.8 million in increased FMAP) that did not comply with the prompt pay requirements.
Claims received on these 37 days were not eligible for increased FMAP. The State agency also
determined the adjustments needed to correct the CMS-64 for the quarters ended March, June,
and September of 2009.

The effect of correcting prompt pay calculations and adjusting the CMS-64 resulted in the State
agency not being eligible for $2,586,522 of increased FMAP for $22,262,056 in claims received
on days when it did not comply with the prompt pay requirements.

At the close of the fieldwork, we validated that the State agency had accurately corrected its
compliance miscalculations. However, we did not validate that the $2,586,522 had been
properly adjusted on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,586,522 to the Federal Government for unallowable increased FMAP and

   •   ensure that calculations are performed in accordance with the prompt pay requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed that it had applied an incorrect
prompt pay standard and incorrectly excluded or included certain prompt pay claims. To cover
all corrections, State agency officials said that they made an adjustment of $2,586,522 and
reported it on the December 2009 CMS-64. The State agency’s comments are included in their
entirety as the Appendix.




                                                 6
APPENDIX
                                                                                                Page 1 of 2

  ''F:S'          I~LlN OIS DI1'4 RT.,I.tU O~
                                                APPENDIX: STATE AGENCY COMMENTS



fH
.
                  Ikalthcarc and
                  Family Serv:ces
                                                                              Pat Quinn, Governor
                                                                              Julie Hamos, Director


201 South Grand Avenue East                                                   Telephone: (217) 782-1200
Springfield, Illinois 62763-0002                                              TTY: (800) 526-5812



                                                      October 29.2010




     Department of Health and Human Services 

     Office of Audit Services. Region V 

     Attn: James C. Cox, Regional Inspector General for Audit Services 

     233 North Michigan Avenue. Suite 1360 

     Chicago, Illinois 60601 


     Re: Draft Audit Report Number A-05-09-00083

     Dear Mr. Cox:

     Thank you for providing the opportunity to comment on your draft audit report entitled "Review
     of Illinois' Prompt Pay Compliance Under the American Recovery Alld Reillvestment Act
     Between Jalluary 1. 2009. and September 30. 2009".

     Please find attached the Departments' response to the recommendations made in the audit report.
     We appreciate the work completed by your audit team.

     If you have any questions or comments about our response to the audit, please contact PeggY'
     Edwards. External Audit Liaison, at (217) 785-9764 or through email at
     peggy.edwards@ilIinois.2:ov.

     Sincerely.


          ~/~
    J ulie {/a~os 

     Director 





E-mail: hfs.webmaster@illinois.gov                                           Internet:
http://www.hfs.illinois.gov/
                                                                                                  Page 2 of 2




Response:

The State agrees that the incorrect standard was initially applied in the Prompt Pay calculation. The
resulting $257,748 FFP over claim was adjusted on the Quarter Ending December 2009 eMS 64
quarterl y report.

As to the claims incorrectly excluded from or included in the Prompt Pay calculation, the State did not
receive final prompt payment guidance until July 30,2009, six months after ARRA was signed into
legislation. The Prompt Pay Guidance SMD#09-004 issued July 30,2009, Section O. Operational
Issues stated:

        " ...We understand there may be a lag for States in operationalizing this provision,
       and that the amount of Federal funds for some expenditures may be inappropriately
       claimed by States at the increased FMAP while the States' systems are being
       modified to correctly identify days that they are non-compliant with the prompt pay
       standard. When a State implements its tracking system after February 18, 2009, it
       will need to run the system retrospectively back to that date to document and verify
       prior period claims. We expect that States will make correcting prior period
       adjustments as appropriate to ensure that all expenditures are claimed correctly in
       accordance with all ARRA and other Federal requirements ..."

The State would not have been able to make adjustments on the eMS 64 for quarter ending June 30,
2009, as the guidance was not issued until after that time. In addition, the adjustments could not have
been made until after implementation of all of the programming changes. The guidance did not
stipulate a timeframe as to when the adjustment should be made.

 The State's dental claims are processed by a third party vendor who also made system programming
changes to provide information necessary to calculate prompt payment. Dental files were held by the
vendor until those changes could be implemented. Based on the timing of the guidance and the State
implemented changes, the earliest the State would have been able to make adjustments would have
fallen during the quarterly report ending December 2009. To cover all corrections there was a prior
period adjustment of $2,586,522 reported on the eMS 64 for December 2009.

As appropriate action has been taken to correct these, no further action is warranted.




                                           Page20f2
